Washington, D.C. 20530

April 29, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Joshua R. Jones v. United States of America,
S.Ct. No. 20-7522
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on March 15, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on May 7, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 26, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7522
JONES, JOSHUA R.
USA

JENNIFER NILES COFFIN
FEDERAL DEFENDER SERVICES OF EASTERN
TENNESSEE
800 S. GAY STREET
STE. 2400
KNOXVILLE, TN 37929
865-637-7979
JENNIFER_COFFIN@FD.ORG

